-V*

9

-J-

N.D.N.Y.
19-cv-505
Sharpe, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 11th day of March, two thousand twenty-one.
Present:
Robert D. Sack,
Richard C. Wesley,
Steven J. Menashi,
Circuit Judges.
Joseph Woods,
Petitioner-Appellant,
20-2336

v.
Superintendent, Clinton Correctional Facility,
Respondent-Appellee.

Appellant, pro se, moves for a certificate of appealability, in forma pauperis status, and other relief.
Upon due consideration, it is hereby ORDERED that the motions are DENIED and the appeal is
DISMISSED because Appellant has not “made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c); see also Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

SEw,r

‘-V*

2

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 29th day of April, two thousand twenty-one,
Present: Robert D. Sack,
Richard C. Wesley,
Steven J. Menashi,
Circuit Judges,

Joseph Woods,

ORDER
Docket No. 20-2336

Petitioner - Appellant,
v.
Superintendent, Clinton Correctional Facility,
Respondent - Appellee.

Appellant Joseph Woods filed a motion for reconsideration and the panel that determined
the motion has considered the request.
IT IS HEREBY ORDERED that the motion is denied.

For The Court:
Catherine O’Hagan Wolfe,
Clerk of Court

S'

, if

I

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 1 of 9

i

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JOSEPH WOODS
Petitioner,
9:19-CV-505
(GLS)

V.

SUPERINTENDENT,
Respondent.
APPEARANCES:

OF COUNSEL:

JOSEPH WOODS
Petitioner pro se
15-A-2130
Washington Correctional Facility
Box 180
Comstock, NY 12821
MARGARET CIEPRISZ
Assistant Attorney General

HON. LETITIA JAMES
Attorney for Respondent
New York State Attorney General
The Capitol
Albany, New York 12224
GARY L. SHARPE
Senior United States District Judge

DECISION and ORDER
I.

INTRODUCTION
Petitioner Joseph Woods sought federal habeas corpus relief pursuant to 28 U.S.C.

§ 2254. Dkt. No. 1, Petition ("Pet.").1 On July 6, 2020, this Court denied and dismissed the
petition in its entirety. Dkt. No. 28, Decision and Order ("July Order"); Dkt. No. 29, Judgment.
Petitioner then filed a request for an extension of time to file a Notice of Appeal, which was

-r

1 Citations to the parties' filings refer to the pagination generated by CM/ECF, the Court's electronic filing
system.

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 2 of 9

denied. Dkt. No. 30, Letter Motion; Dkt. Ne|. 31, Text Order of July 15, 2020.

l-i

Subsequently, petitioner filed a motron for reconsideration. Dkt. No. 33. On August 4,
2020, the motion was denied. Dkt. No. 34, Decision and Order ("August Order"). Petitioner
then filed the presently pending motion to vacate the Judgement. Dkt. No. 37. Respondent
opposed the motion. Dkt. No. 41. Petitioner filed a reply. Dkt. No. 42.
Furthermore, petitioner's appeal to the Second Circuit was stayed pending resolution
of the motion. Dkt. No. 40.
II,

DISCUSSION
Petitioner argues that he is entitled to relief, in the form of a vacated judgment,

because (1) he has discovered new evidence and (2) the prosecutor perpetrated a fraud on
the Court. Dkt. No. 37 at 1.
With regard to new evidence, petitioner contends that documents later revealed to him
demonstrate that the arresting officer's testimony before the grand jury was false and there
was no probable cause to arrest or conduct a body cavity search on petitioner. Dkt. No. 37 at
5. Specifically, petitioner asserts that the charging language in the first count of his
indictment is not accurate. The charging document intimates that petitioner was found with
drugs, on the street, because it states that
On 10/30/2014 at approximately 20:23 hrs while in front of 530
Second St. the [petitioner] did have in his possession and under his
control located in his underwear (1) plastic tie-off style bag containing
24 individual tie-off style bags each containing a quantity of crack
cocaine . . . Based on the weight, style of packaging, lack of
paraphernilia [sic] as well as additional investigative intelligence the
[petitioner] possessed said narcotics with intent to sell.
Dkt. No. 37-1 at 25 (citing Dkt. No. 27 at 24); see Dkt. No. 37-1 at 17 (citing Dkt. No. 27 at 16)
(indictment which charges that "on or about October 30, 2014, at approximately 8:23. p.m., at
2

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 3 of 9

530 Second Street, in the City of Albany . . . [petitioner] did knowingly and unlawfully possess
a narcotic drug with intent to sell.").
However, petitioner contends that this language is wholly inconsistent with the new
evidence he acquired in a later, unrelated civil case. Dkt. No. 37-1 at 20-22. In this case, the
detective's testimony stated that while petitioner was arrested on October 30, 2014, in front of
530 Second Street, the narcotics were discovered during a visual body cavity search later
conducted at the precinct. Compare Dkt. No. 37-1 at 20-21, with Dkt. No. 27 at 19-20; see
Dkt. No. 37-1 at 23 (citing Dkt. No. 27 at 22) (Strip Search Report detailing that crack cocaine
was seized pursuant to a visual body cavity search).
Petitioner concludes that, given these untrue assertions, his conviction was the result
of a fraud perpetrated on the court because "[t]he state attorney knew or should have known
that the indictment and felony complaint contained false testimony, which prejudice^] the
defense and impaired the federal habeas proceeding." Dkt. No. 37 at 5. While petitioner
does not specify the fraudulent information, it is presumed that petitioner challenges the
language of the charging document, which makes it seem like the detective knew petitioner
was in possession of crack cocaine when he was arrested on the street; however, the strip
search report clarifies that the drugs were not discovered until petitioner was later searched
which in police custody. Dkt. No. 37 at 7 ("Lets [sic] assume that the prosecutors theory is
that, the petitioner was charged with the alleged possession of drugs . . . because although
the Albany police recovered these alleged drugs after a visual body cavity search at the
Albany police station, in reality, the drugs might have or should have been on petitioner at the
arrest location.").
In response, respondent argues that petitioner's “new” information is not new and falls
3

*

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 4 of 9

outside of the scope of Rule 60(b) because it attacks his underlying criminal conviction. Dkt.
No. 41 at 2-4.
Petitioner filed a reply. Dkt. No. 42.2 First, he contested underlying facts surrounding
the arrest, namely that he had sold drugs to a confidential informant which precipitated the
arrest. Id. at 1. Further, petitioner disagreed that his information is not new, stating that "this
court never knew [about the detective's testimony] till now and the petitioner never knew
these documents existed to substantiate this illegal visual body cavity search conducted on
petitioned.]" Id. at 2. Moreover, petitioner clarifies that a fraud did impair the integrity of his
habeas proceeding because
(1) if the petitioner's arrest was really based on selling drugs to a
confidential informant, why was the petitioner not charged with selling
drugs to a confidential informant; (2) The AG's basically saying it
without boldly saying that the indictment and felony complaint for this
case were falsified and no probable cause was ever established for
the petitioner's arrest; and (3) the AG knows that for a valid visual
body cavity search to be conducted on an arrestee, the arresting
officer needs an actually charged crime prior to search and a
reasonable suspicion to search the arrestee along with approval from
the supervisor.
Id. at 3. In sum, petitioner asserts this evidence was intentionally suppressed to preclude him
from successfully pursuing his habeas petition. Id. at 4.
A.

Rule 60

Ruie 60(b) provides:
Grounds for Relief from a Final Judgment, Order or Proceeding.
On a motion and just terms, the court may relieve a party . . . from a
2 The Local Rules indicate that "[r]eply papers ... are not permitted without the Court's prior permission."
N.D.N.Y.L.R. 7.1 (b)(2). While petitioner did not acquire the required permission, given the special solicitude granted
to pro se litigants, the Court has reviewed the entirety of the submission and, while improperly filed, has decided to
consider it during these deliberations.

4

*

Case 9:19-CV-00505-GLS Document 43 Filed 12/04/20 Page 5 of 9

final judgment, order, or proceeding for the following reasons:

(1)
(2)
(3)
(4)
(5)
(6)

mistake, inadvertence, surprise, or excusable neglect;
newly discovered evidence, that with reasonable diligence,
could not have been discovered in time to move for a new
trial under Rule 59(b);
fraud, misrepresentation, or misconduct;
the judgment is void;
the judgment has been satisfied, released, or discharged; or
any other reason that justifies relief.

"The Supreme Court has recognized that Rule 60(b) applies in habeas corpus cases and
may be used to reopen a habeas proceeding." Flemming v. New York, No. 1:06-CV-15226,
2013 WL 4831197, at *12 (S.D.N.Y. Sept. 10, 2013) (citing Gonzalez v. Crosby, 545 U.S.
524, 534 (2005)). "Importantly, Rule 60(b) is not a vehicle for rearguing the merits of the
challenged decision . . . [rjather. . . Rule 60(b) provides relief only in exceptional
circumstances." Van Gorder v. Allerd, No. 6:01-CV-6538, 2008 WL 822018, at *2 (W.D.N.Y.
Mar. 26, 2008) (emphasis in original).
"A motion brought under Rule 60(b) must be made 'within a reasonable time' and
motions brought under Rule 60(b)(1), (2), or (3) must be made within one year after the entry
of judgment." Flemming, 2013 WL 4831197, at *12. Judgment in petitioner's habeas petition
was entered on July 06, 2020. Dkt. No. 29. This motion was filed three months later. Dkt.
No. 37. Accordingly, the motion is timely.
B.

Rule 60(b)(2)

"However, the Supreme Court has held that motions seeking to introduce newlydiscovered evidence in support of a previously-denied claim are, in essence, second or
successive habeas petitions outside the scope of Rule 60(b)." Gross v. Graham, No. 14-CV0768 (JKS), 2018 WL 9539132, at *2 (N.D.N.Y. Aug. 27, 2018) (citing Gonzales v. Crosby,
5

; *

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 6 of 9

545 U.S. 524, 531 (2005) ("Using Rule 60(b) to present new claims for relief [or evidence]
from a state court's judgment of conviction - even claims couched in the language of a true
Rule 60(b) motion - circumvents AEDPA's requirements.]"). Further, the Second Circuit has
provided guidance that
a Rule 60(b) motion that attacks the underlying conviction presents a
district court with two procedural options: (I) . . . transfer^ to the
[Second Circuit] as a second or successive petition] for possible
certification; or (ii) . . . deny the portion of the motion attacking the
underlying conviction as beyond the scope of Rule 60(b).
Harris v. United States, 367 F.3d 74, 82 (2d Cir. 2004) (internal quotation marks and citations
omitted).
Here, petitioner's claims that the “new” evidence that he presented demonstrates that
he was arrested and searched without probable cause, that the charging documents were
false, and that the police failed to abide by their own regulations for cavity searches. In both
of petitioner's prior New York Criminal Procedure Law § 440.10 motions in state court, he had
argued that he was arrested and searched unlawfully and that the prosecutor had committed
misconduct by fraudulently presenting evidence to the grand jury. July Order at 6-7, 8-9.
Petitioner also raised these same claims in the habeas petition, arguing that his constitutional
rights were violated by an illegal search; his arrest that was not supported by probable cause;
and that the prosecutor committed misconduct by lying to the grand jury. Id. at 10, 22-23.
Those arguments relied on the same documents petitioner presently provided to the Court.
See July Order at 2 (citing Dkt. No. 27, which are the identical documents now before the
Court in Dkt. No. 37-1). The claims were denied as barred and waived.
The present motion is, in essence, a second habeas petition. Petitioner seeks to
introduce newly-discovered evidence relating to potential Fourth Amendment claims for
6

’

»

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 7 of 9

,1

constitutional violations that occurred during the course of events giving rise to his conviction.
Despite petitioner's assertions to the contrary, the essence of his claims revolve around the
appropriateness of the cavity search and his arrest, as well as the charging documents which
were created thereafter. These claims are all attempts to challenge the merits petitioner’s
underlying state court conviction, which may only properly be accomplished by filing another
habeas corpus petition. See Ackridge v. Barkley, No. 7:06-CV-3891,2008 WL 4555251, at
*1 (S.D.N.Y. Oct. 7, 2008) (explaining that "the proper vehicle for presenting [a claim of new
evidence for reconsideration of the merits of the underlying criminal conviction] ... is not a
Rule 60(b) motion, but rather an application to the Court of Appeals for permission to file a
second or successive petition."); Evans v. Graham, No. 1:14-CV-4039, 2017 WL 6729639, at
*3 (E.D.N.Y. Sept. 20, 2017) (denying petitioner's motion as beyond the scope of Rule 60
where petitioner "attempted] to use new evidence to attack the integrity of his conviction
rather than any procedural defect in his habeas proceedings.").
B.

Rule 60(b)(3)

Furthermore, petitioner's valiant endeavor to bring his motion within the scope of Rule
60(b) - by contending that the proffered documents were withheld from the Court and
unavailable for litigation during the habeas petition - is unsupported and meritless. "To
prevail on a Rule 60(b)(3) motion, a movant must show that the conduct complained of
prevented the moving party from fully and fairly presenting his case." State Street Bank &
Trust Co. v. Inversiones Errazuriz Limitada, 374 F.3d 158, 176 (2d Cir. 2004). Furthermore,
"[a] Rule 60(b)(3) motion cannot be granted absent clear and convincing evidence of material
misrepresentation and cannot serve as an attempt to relitigate the merits." Flemming v. New
York University, 865 F.2d 478, 484-85 (2d Cir. 1989). In sum, a petitioner must do more than
7

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 8 of 9

track the words of the Federal Rules to make the motion plausible.
Petitioner's conclusory claims that this alleged fraud impacted his federal habeas
proceedings is unpersuasive. ^First, it is questionable whether the perceived inconsistency 1
demonstrated by the detective's later testimony - regarding what was known about the drugs
petitioner had in his possession at the time of his arrest - constitutes a material
misrepresentation. This is especially true in the face of petitioner's allocution, where he
admitted to being in possession of drugs at the time of his arrest, and valid guilty plea. July
Order at 3 (citing Dkt. No. 20-3 at 34-35), 16-19. Second, the information petitioner now
seeks to present before the Court was already presented - by the petitioner - and considered
and denied. Therefore, petitioner did fully and fairly present his claims to the Court and there
was not any prejudice to, or impairment of, the federal habeas proceedings.. Third, as
discussed above, the new evidence is nothing more than another attempt to relitigate the
merits of the petition, which was previously unsuccessful.
III.

CONCLUSION
WHEREFORE, it is
ORDERED that petitioner's motion (Dkt. No. 37) is DENIED WITH PREJUDICE as

being outside the scope of Rule 60(b); and it is further
ORDERED that no Certificate of Appealability shall issue because petitioner failed to
make a "substantial showing of the denial of a constitutional right" as 28 U.S.C. § 2253(c)(2)
requires3; and it is further

3 See Miller-El v. Cockrell, 537 U.S. 322, 336 (2003); see also Richardson v. Greene, 497 F.3d 212, 217
(2d Cir. 2007) (holding that if the court denies a habeas petition on procedural grounds, "the certificate of
appealability must show that jurists of reason would find debatable two issues: (1) that the district court was correct
in its procedural ruling, and (2) that the applicant has established a valid constitutional violation").

8

■f

*
I

f

4

if

<

* *

Case 9:19-cv-00505-GLS Document 43 Filed 12/04/20 Page 9 of 9

V'

ORDERED that the Clerk shall serve a copy of this Decision and Order on petitioner in
accordance with the Local Rules.
December 4, 2020
Albany, New York

I

9

H

*

U.S. DISTRICT COURT - N.D. OF Tf.

FILED

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

m % ® 2021
JOSEPH WOODS

AT

Petitioner,

O'CLOCK ,

John M. Domurad, Clerk h .i j( t^e

9:19-CV-505

v.

(GLS)
SUPERINTENDENT,
Respondent.
APPEARANCES:

OF COUNSEL:

JOSEPH WOODS
Petitioner pro se
15-A-2130
Washington Correctional Facility
Box 180
Comstock, NY 12821
MARGARET A. CIEPRISZ
Assistant Attorney General

HON. LETITIA JAMES
Attorney for Respondent
New York State Attorney General
The Capitol
Albany, NY 12224
GARY L. SHARPE
Senior United States District Judge
DECISION and ORDER
I.

INTRODUCTION
Petitioner Joseph Woods sought federal habeas corpus relief pursuant to 28 U.S.C.

§ 2254. Dkt. No. 1, Petition ("Pet.").1 On July 6, 2020, this Court denied and dismissed the
petition in its entirety. Dkt. No. 28, Decision and Order ("July Order"); Dkt. No. 29, Judgment.
Petitioner then filed a request for an extension of time to file a Notice of Appeal, which was
1

system.

Citations to the parties' filings refer to the pagination generated by CM/ECF, the Court's electronic filing

, *

L

H

,i

Petitioner seeks reconsideration of the Court's December Order because, petitioner
claims, the motion was "decided in 'Clear Error.'" Dkt. No. 45 at 1. Petitioner reiterates that
he "presented newly discovered evidence to this Court, however, it appears that this Court
has overlooked and[/]or failed to determine whether the newly discovered evidence
constitutes a material misrepresentation." Id. Petitioner goes on to argue that false evidence
was presented to the Grand Jury to secure petitioner's conviction, which was an act to
defraud the court. Id. at 3. Petitioner then presents, in great detail, an analysis on what
newly discovered evidence is, when such evidence constitutes a material misrepresentation,
and whether the specific facts of his circumstances constitute a denial of due process. Id. at
4-8.
Prior to respondent filing an opposition, petitioner requested permission to reply to the
response. Dkt. No. 46. Because the necessity for a reply cannot be determined before a
response has been filed, petitioner's motion was premature.
Respondent then opposed the motion for reconsideration. Dkt. No. 47. Specifically,
respondent claimed that petitioner offers no basis for reconsideration and, instead, merely
disagrees with the reasoning in the Court's December Order. Id. at 1-3. After considering
the motion and respondent's opposition, there is no need for a reply.
"The standard for. .. [reconsideration] is strict, and reconsideration will generally be
denied unless the moving party can point to controlling decisions or data that the court
overlooked .. . that might reasonably be expected to alter the conclusion reached by the
court." Shrader v. CSX Transp., Inc., 70 F.3d 255, 257 (2d Cir. 1995). Reconsideration is
warranted only where controlling law has changed, new evidence is available, clear error

3

*

4

the Local Rules.
January 20, 2021
Albany, New York

5

'It.

• V

rv '•
Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20 Page 1 of 27

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

JOSEPH WOODS,
Petitioner,

9:19-CV-505

v.

(GLS)
SUPERINTENDENT,
is
Respondent.

OF COUNSEL:

APPEARANCES:
JOSEPH WOODS
Petitioner pn se
15-A-2130
Washington Correctional Facility
Box 180
72 Lock 11 Lane
Comstock, NY 12821

MARGARET A. CIEPRISZ
Assistant Attorney General

HON. LETI7IA JAMES
Attorney for, Respondent
New York State Attorney General
28 Liberty Si'reet
New York, N Y 10005
GARY L. SFARPE
Senior United States District Judge

DECISION and ORDER
I.

INTRODUCTION
Petitioner Joseph Woods seeks federal habeas corpus relief pursuant to 28 U.S.C.

§ 2254. Dkt; No. 1, Petition ("Pet."). Respondent opposes the petition. Dkt. No. 18,
Memorandum of Law in Opposition ("Resp. Mem."); Dkt. No. 19, Answer; Dkt. Nos. 20-1 &
20-2, State Court Record ("SCR"); Dkt. No. 20-3, State Court Transcripts. Petitioner replied
I*

V.
*1

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 2;of 27

to respondent's opposition. Dkt. No. 25, Traverse; Dkt. No. 27, Exhibit.
For the reasons that follow, the petition is denied and dismissed.
II.

RELEVANT BACKGROUND
A.

Plea Hearing

In satisfaction of a two-count indictment, petitioner ultimately pled guilty to fourth
degree criminal possession of a controlled substance on January 29, 2015. See People v.
i

Woods, 150 A.D.3d 1560, 1560 (3d Dep't 2017); see generally Dkt. No. 20-3 at 19-42 (plea
hearing transcript). During the plea hearing, petitioner indicated that he had no issues
reading, writing, or understanding the plea proceedings. Dkt. No. 20-3 at 23-24. Petitioner
reported he had sufficient time to discuss the offer with his attorney and, because the plea
deal was for half of the maximum time possible for the reduced charge to which he was
pleading and "significantly less than the maximum on the actual charged crime, which [wa]s
15 years incarceration," petitioner was highly satisfied with the services ol his appointed
counsel, Michael Jurena. Id. at 25.
The court then discussed, in detail, the right to remain silent and the right to a trial,
both of which petitioner agreed to give up in consideration for the plea deal. Dkt. No. 20-3 at
25-27. Petitioner affirmed he had not been threatened, coerced, or otherwise forced into the
plea and that this plea represented his voluntary choice. Id. at 27. In sum, petitioner stated
he was pleading guilty because he was guilty. Id. at 27-28. The court also asked petitioner if
"[i]n consideration of this negotiated plea . . . [he] withdr[e]w all motions that have either been

With the exception of the State Court Record, Dkt. Nos. 20-1, 20-2, which- is Bates stamped and
consecutively-paginated on the lower right-hand corner of each document, citations to the parties' filings refer to the
pagination generated by CM/ECF, the Court's electronic filing system.
If.

2

: 1

* 1

►

L

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20

Page 3 of 27

made or that could be made on [his] behalf, and . . . waive [his] right to a suppression
hearing, and to all other rights and remedies that are [his] in connection with this matter?" Id.
at 28-29. Petitioner agreed, as well as agreeing to waive his right to appeal. Id. at 29.
-.!

The court released petitioner on his own recognizance, pending sentencing. Dkt. No.
20-3 at 31, 25. However, the court admonished petitioner as follows:
'Let me make this very clear to you[, petitioner]. Should you be
arrested between today's date and the sentencing date, [the court] will
consider you to have broken your end of this bargain. So [the court]
vill no longer be bound by [its] promise of four-and-a-half years. [The
court] can sentence [petitioner] up to the nine years that [he] face[s]
4)n a Class C felony. Do you understand that, sir?
f
Id. at 31-32. Petitioner indicated that he did. The court also explained to petitioner that
•'f [the judge] felt a more severe sentence [wa]s necessary as a result
of some information that comes to [his] attention before the sentence,
:And that would be something that happened before today that [the
judge did not] know about. In other words, the probation department
does their presentence investigation and tells [the judge that petitioner
las] a conviction ... in some other state that [the judge] do[es]n't
Know about today ... if [he] were to find out something had happened
oefore today that [he] didn't know about today, and [he] fe[lt] that [he]
could no longer give that four-and-a-half year sentence, [he] would let
ipetitioner] have [his] plea back and we would be back to where we
were at the start of the day.
Id. at 33. Petitioner agreed, and then petitioner allocuted that he was in possession of an
excess of 1 /3th of an ounce of crack cocaine at the time of his arrest and pled guilty to the
charge above. Id. at 34-35.2 Petitioner also waived his right to contest that he is a second
felony offender, accepting that the court will be sentencing him as such. Id. at 37-38.
Finally, the court concluded by reiterating the warning above. Id. at 40. Specifically, the
■ i

2 The felony complaint also states that the arresting officer viewed a plastic, tie-off bag, containing twentyfour individual fied-off baggies, in the petitioner's underwear. SCR at 11.

4i

3

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 4 of 27

II

court closed by saying

if

Additionally, and we referenced this earlier, if [petitioner is] arrested
- and [he is] going to be out. [He is] not going to be in jail from now
until the sentencing date. [He is] going to be out. So, if [petitioner is]
arrested - I didn't say convicted - if [petitioner is] arrested for a"crime
between today and the sentencing date, again, [the court] will
consider [the petitioner] to have broken [his] end of the bargain, so
[the judge is] not bound by [his].
Id. at 40. Petitioner again indicated understanding and acceptance. Id.
B.

Subsequent Court Appearances

On March 13, 2015, petitioner returned to court for what was to be his sentencing
hearing. Dkt. No. 20-3 at 44. Instead, testimony indicated that petitioner'had allegedly made
>
two additional drug sales, one before and one after his plea. Id. at 45-47..- The prosecution
shared its intention to charge petitioner for the post-plea sale; therefore, the matter was
adjourned for the possibility of a global plea deal and petitioner was remanded to custody.
Id. at 47-50.
On April 21, 2015, petitioner again appeared in court, this time with retained counsel,
Lee Kindlon. Dkt. No. 20-3 at 53. The court reiterated the plea deal, as well as its
admonition that "should [petitioner] be arrested ... on any charge during the pendency of the
period of time between plea and sentence, that in fact the [petitioner] woiild face an
*

'.

j

enhanced sentence." Id. at 53. Petitioner had been rearrested and incarcerated based upon
the drug sale which preceded his January plea; however, there was also uncharged criminal
conduct, resulting from a controlled buy in March, which existed. Id. at 54. The court
*^

indicated that petitioner could plead guilty to a nine-year-sentence with three years of postr.

release supervision, which would reflect a global settlement in full satisfaction of any and all
charges concerning the pre- and post- drug sale and/or possession. Id. at 55. Petitioner
4

t .

[

Case'9:19-cv-00505-GLS

Document 28

Filed 07/06/20 Page 5 of 27

declined the offer and exclaimed that Kindlon no longer represented him. Id. at 55-56. The
court adjourned the matter for two weeks so that petitioner could secure different
representation. Id. at 56. Concurrently, the prosecutor indicated he was presenting the post­
plea crimina conduct to the grand jury. Id.
On May 8, 2015, petitioner again appeared in court and indicated he could not retain
counsel. Dkt. No. 20-3 at 60. The court provided petitioner with one more chance to find
representation. Id. at 65-67.
C.

-i Sentencing

On May 14, 2015, petitioner appeared for sentencing. Dkt. No. 20-3 at 68-88.
Because petitioner was unable to retain new counsel, the court appointed Jennifer Sober. Id.
at 69. The court again reiterated the facts surrounding the plea, its admonition to petitioner,
and the subsequent criminal conduct of petitioner's alleged pre- and post-plea drug sales. Id.
at 69-71.
The possibility of a global settlement was discussed. Dkt. No. 20-3 at 72, 74. The
prosecution Renewed its offer of nine years incarceration in full satisfaction of the open arrest
charge, pending indictment, and current case. Id. at 74. Sober indicated that she had
spoken with petitioner four times that day and expressed her support for the deal. Id. at 7475. Sober a!so shared that she explained this to the petitioner and his father, as well as how
petitioner's actions subsequent to his plea served to break his plea bargain with the court. Id.
75. Petitioner declined the offer. Id. at 78.
The court, thereafter, sentenced petitioner as a second felony offender. Dkt. No. 20-3
at 78-88. The prosecution moved for an enhanced sentence, presenting the court with
information that the petitioner was charged with criminal sale of a controlled substance, the
5

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 6 of 27
I

same crime petitioner had already pled guilty to, and the indictment was pending before
another judge in the same court. Id. at 80. The court then imposed its sentence, noting that
because the presently-indicted charged conduct occurred after the plea took place and
before the date of the sentencing, petitioner violated the terms of the agreement and the
court was no longer bound to a four-and-one-half year sentence. Id. at 84. Instead, the
judgment of the court sentenced petitioner to seven years incarceration with three years
supervision. Id. Petitioner immediately challenged the sentence enhancement, contending
that he was never arrested for the post-plea sale, thus, he had not broken the express
provisions issued by the court. Id. at 86-87. The prosecution confirmed that petitioner "ha[d]
been arrested on the indictment based on the sale that happened after the plea." Id. at 87.
At that point, the court ordered petitioner be transferred to the other judge in the court for
arraignment on his post-plea drug sale indictment and otherwise concluded the proceedings.
Id.
D.

First Motion to Vacate Judgment

>■!

While petitioner's direct appeal was pending, petitioner filed his first motion to vacate
his judgment pursuant to New York Criminal Procedure Law § 440.10 ("440 motion"). SCR
at 1-19. Petitioner argued that he was entitled to relief because (1) he was arrested without
probable cause; (2) his counsel was ineffective; and (3) there were "issues that occurred off
the record." Id. at 2, 8. Petitioner contended that his counsel, Michael Jurena, was
constitutionally ineffective because (a) he "insisted that [petitioner] take the [plea] offer;" (b)
he failed to file either a motion to dismiss or motion to suppress evidence; (c) he failed to
properly investigate the case prior to advising petitioner what he should do; (d) he failed to
communicate with petitioner about viable defenses to his charges; and (e.| advised petitioner
6

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20 Page 7 of 27

that law enforcement was not acting illegally when they searched him if law enforcement
suspected petitioner of carrying drugs. Id. at 5-6. Petitioner also asserted that his second
counsel, Lee Kindlon, "explained . . . that [petitioner] had a right to get his plea back and that
he would see to it that he got his plea," until he arrived in court whereupon he continued to
advise and p'ersuade petitioner to take the enhanced plea deal for nine years. Id. at 7. The
People opposed the motion. Id. at 20-29. Thereafter, petitioner filed a reply and
supplemental documents in support. Id. at 30-40.
On March 16, 2017, Albany County Court denied petitioner's 440 motion. SCR at 41 43. With respect to petitioner's arguments about lack of probable cause, the court held that
petitioner "forfeited his right to raise this issue by entering a knowing, voluntary, and
intelligent guilty plea before a suppression hearing was held." Id. at 42 (citations omitted).
Further, the court determined that petitioner's ineffective assistance of counsel claims "must
be denied wthout a hearing [because petitioner] . . . failed to set forth adequate non-record
material facts that, if established, would entitle him to 440 . . . relief," and that, in any event,
petitioner "failed to demonstrate the absence of strategic of other legitimate explanations for
the alleged shortcoming by his various counsel." Id. at 43. Lastly, the court held that
"[b]eyond the issues raised above, [petitioner] d[id] not set forth any other matters that are
outside the record." Id.
Petitioner sought leave to appeal County Court's denial. SCR at 45-69. On May 11
2017, the application was denied. Id. at 70.
.'i

E.

u Direct Appeal
.

’.I

Petitioner filed a counseled brief on direct appeal. SCR at 71-87. As is relevant to the
present action, petitioner argued he was entitled to relief because the trial court erred when it
7
\

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20 Page 8 of 27

enhanced his sentence without allowing him to withdraw his guilty plea. Ip. at 78-80.
The New York State Appellate Division, Third Department, affirmed the conviction.
Woods, 150 A.D.3d at 1562; see SCR at 227-29 (Third Department Memorandum and
Order). The Third Department rejected petitioner's arguments that, because he had not
been physically arrested as a result of his post-plea indictment, he had not breached the
terms of the agreement. Woods, 150 A.D.3d at 1561. Specifically, the appellate court
explained
[a]s is evident from the record, the no-arrest condition was imposed
by the court to discourage [petitioner] from committing additional
crimes subsequent to the entry of his guilty plea while he was.out on
bail pending sentencing. [Petitioner], however, was arrested during
this time for a crime that he committed prior to entering his guilty plea
and he was incarcerated as a result. [Petitioner's incarceration
obviated the need to physically detain him on the charge of criminal
sale of a controlled substance that arose from his post-plea criminal
conduct. This criminal conduct, which resulted in an indictment, was
implicitly proscribed by the conditions of the plea agreement and
provided a legitimate basis for enhancement of the sentence.
Accordingly, Supreme Court did not err in imposing an enhanced
sentence under the circumstances presented.
Id.
Petitioner filed a counseled leave application to the New York Court of Appeals
asserting, among other things, that the trial court erred in enhancing his sentence without
allowing petitioner to withdraw his plea. SCR at 230-31. On July 28, 201|7, the Court of
Appeals denied petitioner's application for leave to appeal. Id. at 232.

F.

Second Motion to Vacate

On February 21,2018, petitioner filed his second CPL 440.10 motion. SCR at 233309 (“second 440 Motion”). Petitioner contended he was entitled to relief because (1) courtappointed counsel Jurena was ineffective because he (a) withheld evidence from petitioner,
8

Cases0:19-cv-OO5O5-GLS Document 28 Filed 07/06/20 Page 9 of 27
1

specifically that he was arrested based on a controlled buy which never took place, and (b)
incorrectly advised petitioner that law enforcement had a valid search warrant to strip search
him (id. at 240-41); (2) the guilty plea was not knowing, intelligent or voluntary because (a)
petitioner "rntver agreed to a plea bargain [whereupon] ... his sentence could be enhanced
by an uncharged crime," and (b) when petitioner pled, he believed the police had lawfully
strip searched him (id. at 242); and (3) the prosecutor committed misconduct by knowingly
presenting ffilse evidence to the grand jury, namely that petitioner never committed the drug
transaction (id. at 243-44). The People opposed petitioner's motion. Id. at 310-16.
Petitioner filed a reply. Id. at 317-19.3
Albany County Court denied the motion. SCR at 329-33. Specifically, the court held
that petitioner "forfeited his right to raise [issues about lack of probable cause] ... by
entering a knowing, voluntary and intelligent guilty plea before a suppression hearing was
held." Id. at 331. Further, the content of petitioner's plea negated any challenges to the
veracity or sufficiency of the evidence and his contentions about ineffective assistance of
counsel failed to demonstrate prejudice. Id. at 331-32. Moreover, while not specifically
addressing the individual arguments supporting petitioner's allegations of ineffective
assistance of counsel, the court held that petitioner's arguments involving the nature of his
guilty plea were records-based and properly brought upon direct appeal; therefore, the
second 440 motion was an inappropriate vehicle to challenge such claims. Id. Further, "[t]o
the extent [petitioner] . . . raised matters outside the record, the [c]ourt f[ou]nd them to be

3 Petit oner also filed a motion to set aside his sentence, pursuant to New York Criminal Procedure Law
§ 440.20, because the trial court allegedly erred in determining petitioner was a violent felon. SCR at 320-27. This
claim is not presently before the Court for review. However, it was denied by Albany County Court, along with his
second motion'to vacate, on December 6, 2018. Id. at 329-33.

9
)'■

,i

I

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page id of 27

wholly conclusory and insufficient to warrant a hearing or any further discussion." Id.

n

Petitioner filed an application for leave to appeal with the Third Department. SCR at
u
334-478. On January 31,2019, the Third Department denied the application. Id. at 479.
III.

PRESENT PETITION
Petitioner contends that he is entitled to federal habeas relief because (1) petitioner’s

Fourth Amendment rights were violated when he was illegally searched and arrested without
probable cause (Pet. at 5-6); (2) petitioner’s counsel was ineffective (id. at 7-8); (3) there was
prosecutorial misconduct, namely demonstrated by the indictment being based on false
evidence (id. at 8-10); (4) the plea was neither voluntary nor knowing (id. ;at 10-11); and (5)
: u
the trial court erred when it failed to facilitate the withdrawal of petitioner’3,>plea after the plea
i.

agreement was violated (id. at 16).
IV.

DISCUSSION
A.

Standard of Review

Under the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), a federal
court may grant habeas corpus relief with respect to a claim adjudicated on the merits in
state court only if, based upon the record before the state court, the state court's decision: (1)
was contrary to, or involved an unreasonable application of, clearly established federal law
F
as determined by the Supreme Court of the United States; or (2) was based on an
!•

unreasonable determination of the facts in light of the evidence presented- in the State court

4 On June 18,2018, petitioner also filed a motion for a writ of error coram nobis contending that his appellate
counsel was constitutionally ineffective. SCR at 480-534. Petitioner's motion was denied* by the Third Department
on July 26, 2018, and the Court of Appeals denied leave to appeal on September 26, 2018. Id. at 535, 541.
Petitioner also filed a third 440 motion, arguing he was entitled to relief because his trial counsel was
ineffective for failing to challenge the propriety of a search warrant for his girl friend's,aoartment and during the
subsequent suppression hearing. SCR 542-43. Albany County Court denied petitioner's motion. Id. 542-47.
Petitioner failed to renew any of these claims in his present petition.

10

r

,K

Case <):19-cv-00505-GLS Document 28

Filed 07/06/20 Page 11 of 27

proceeding.^ 28 U.S.C. §§2254(d)(1), (2); Cullen v. Pinholster, 563 U.S. 170, 180-81, 185
(2011); Pren\o v. Moore, 562 U.S. 115, 120-21 (2011); Schriro v. Landrigan, 550 U.S. 465,
473 (2007). This standard is "highly deferential" and "demands that state-court decisions be
given the be'oefit of the doubt." Felkner v. Jackson, 562 U.S. 594, 598 (2011) (per curiam)
(quoting Rerico v. Lett, 559 U.S. 766, 773 (2010) (internal quotation marks omitted)).
The S upreme Court has repeatedly explained that "a federal habeas court may
overturn a state court's application of federal law only if it is so erroneous that 'there is no
possibility fa rminded jurists could disagree that the state court's decision conflicts with th[e
Supreme] Court's precedents.'" Nevada v. Jackson, 569 U.S. 505, 508-509 (2013) (per
i!

curiam) (quoting Harrington v. Richter, 562 U.S. 86, 102 (2011)); see Metrish v. Lancaster,
569 U.S. 35'q 358 (2013) (explaining that success in a habeas case premised on
§ 2254(d)(1) requires the petitioner to "show that the challenged state-court ruling rested on
'an error wel understood and comprehended in existing law beyond any possibility for
fairminded disagreement.'") (quoting Richter, 562 U.S. at 103)).
Additionally, AEDPA foreclosed "’using federal habeas corpus review as a vehicle to
second-guens the reasonable decisions of state courts.'" Parker v. Matthews, 567 U.S. 37,
132 S. Ct. 2'‘!48, 2149 (2012) (per curiam) (quoting Renico, 559 U.S. at 779). A state court's
t

findings are not unreasonable under §2254(d)(2) simply because a federal habeas court
reviewing the claim in the first instance would have reached a different conclusion. Wood v.
Allen, 558 U.’S. 290, 301 (2010). "The question under AEDPA is not whether a federal court
believes the state court's determination was incorrect but whether that determination was
unreasonab's - a substantially higher threshold." Schriro, 550 U.S. at 473.
f

FedeVal habeas courts must presume that the state courts' factual findings are correct
11
•'!

fl

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 12 of 27
if
" s

unless a petitioner rebuts that presumption with '"clear and convincing evidence.'" Schriro
550 U.S. at 473-74 (quoting § 2254(e)(1)). "A state court decision is based on a clearly
erroneous factual determination if the state court failed to weigh all of the’ relevant evidence
before making its factual findings." Lewis v. Conn. Comm'r of Corn, 790 F.3d 109, 121 (2d
Cir. 2015). Finally, "[w]hen a state court rejects a federal claim without expressly addressing
that claim, a federal habeas court must presume that the federal claim was adjudicated on
the meritsj.]" Johnson v. Williams, 568 U.S. 289, 301 (2013).
B.

i s

Fourth Amendment Violation (Ground One)

As raised in his first 440 motion, petitioner contends that he is entitled to federal
habeas relief because he was arrested without probable cause and subjected to an illegal
search and seizure. Pet. at 5-6. Respondent argues that petitioner's claims are not
cognizable and that, even if they were, his knowing and voluntary plea bars their review.
Resp. Mem. at 13-15. Petitioner replied that his plea was not knowing and voluntary, but illadvised, because he could not have been meeting a confidential informant (Cl) for a drug
transaction when the Cl was arrested three hours prior to the meeting. Traverse at 3, 7.
Petitioner's Fourth Amendment claim is foreclosed by Stone v. Powell, 428 U.S. 465
(1976). Pursuant to Stone, "where the State has provided an opportunity for full and fair
litigation of a Fourth Amendment claim, the Constitution does not require that a state prisoner
be granted federal habeas corpus reliefj.j" 428 U.S. at 482; accord Graham v. Costello, 299
F.3d 129, 133-34 (2d Cir. 200£). The bar created by the Supreme Court tin Stone "applies to
all Fourth Amendment claims, including claims of illegal stops, arrests, searches, or seizures
based on less than probable cause[.]" McCray, 2017 WL 3836054, at *6i(citing Cardwell v.
.+

Taylor, 461 U.S. 571, 572-73 (1983) (per curiam)).

12

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 13 of 27

The Only requirement under Stone is that the state provide a petitioner the
i

"opportunity' to litigate a Fourth Amendment claim. McPhail v. Warden, Attica Corr. Facility,
707 F.2d 67/69-70 (2d Cir. 1983). Therefore, habeas review is only available: "(a) if the
state has provided no corrective procedures at all to redress the alleged fourth amendment
violations; ot-(b) if the state has provided a corrective mechanism, but the defendant was
precluded from using that mechanism because of an unconscionable breakdown in the
underlying process." Capellan v. Riley, 975 F.2d 67, 70 (2d Cir. 1992) (citing Gates v.
Henderson, 568 F.2d 830, 840 (2d Cir. 1977)); accord Hirsh v. McArdle, 74 F. Supp. 3d 525,
532-533 (N.'D.N.Y. 2015).
The Second Circuit has recognized that New York provides adequate procedures to
redress Fourth Amendment violations. Capellan, 975 F.2d at 70 & n.1 (citing a motion to
suppress ev-'tience, pursuant to CPL § 710.10 et seq., as a "facially adequate" and
"approved" procedure for adjudicating alleged Fourth Amendment violations); see also, e.g,
Blake v. Martuscello, No. 10-CV-2570, 2013 WL 3456958, at *5 (E.D.N.Y. July 8, 2013)
(citing CPL § 710.10 and finding that the Second Circuit has explicitly approved New York's
procedure for litigating Fourth Amendment claims).
(Ojnce it is established that a petitioner has had an opportunity to
itigate his or her Fourth Amendment claim (whether or not he or she
'took advantage of the state's procedure), the court's denial of the
:laim is a Conclusive determination that the claim will never present
a valid basis for federal habeas relief.
.it

Graham, 299 F.3d at 134.
Here, petitioner did not avail himself of a suppression hearing; however, that is
immaterial tci the present analysis. As previously discussed, all that is required is the
opportunity to engage in the state court remedy. Graham, 299 F.3d at 134. Instead of

13

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 14 of 27

pursuing said remedy, during the colloquy with the court, petitioner explicitly agreed to "waive
'» *
[his] right to a suppression hearing." Dkt. No. 20-3 at 28-29. The availability of a remedy
,

<’

and petitioner's choice not to pursue it divests him of the right to now claim a Fourth
•ii

Amendment violation unless he can demonstrate a failing of the state remedy. However,
•-1

petitioner completely fails to argue that he was precluded from pursuing s suppression
r
hearing due to an "unconscionable breakdown in the underlying process." Capellan, 975
F.2d at 70. Instead, petitioner presents arguments to support his claim that his plea was
neither knowing nor voluntary. Such claims are insufficient to demonstrate that petitioner
!

was denied an opportunity to litigate his Fourth Amendment claims.
Accordingly, petitioner has failed to state a cognizable claim.
Moreover, it is important to note that his conviction was rendered pursuant to a guilty
plea.
[A] guilty plea represents a break in the chain of events which has
preceded it in the criminal process. When a criminal defendant has
solemnly admitted in open court that he is in fact guilty of the offense
with which he is charged, he may not thereafter raise independent
claims relating to the deprivation of constitutional rights that occurred
prior to the entry of the guilty plea. He may only attack the voluntary
and intelligent character of the guilty plea by showing that the advice
he received from counsel was not within the [constitutionally required]
standards[.]
Tollett v. Henderson, 411 U.S. 258, 267 (1973); see United States v. Garcia, 339 F.3d 116,
117 (2d Cir. 2003) ("It is well settled that a defendant who knowingly and voluntarily enters a
guilty plea waives all non-jurisdictional defects in the prior proceedings."); United States v.
Coffin, 76 F.3d 494, 497 (2d Cir. 1996) (explaining that where a petitioner:provides a
:!

counseled guilty plea, "the issue is not the merits of [petitioner's] independent claims ... but
A;

rather whether the guilty plea had been made intelligently and voluntarily with the advice of

14

!i

J

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20

Page 15 of 27

competent counsel.") (internal quotation marks and citations omitted).
"Since Fourth Amendment rights are nonjurisdictional, a knowing and voluntary guilty
plea waives claims stemming from an alleged Fourth Amendment violation." Taylor v. Unger,
No. 1:11-CV-1078, 2012 WL 5288733, at *4 (W.D.N.Y. Oct. 23, 2012) (citing inter alia United
States v. Arango, 966 F.2d 64, 66 (2d Cir. 1992)). While petitioner argues that his guilty plea
C:

was not knowing and voluntary, for the reasons stated below, those claims are meritless,
s
Accordingly, even if petitioner had proffered a cognizable claim, his plea served to waive it.
jI*

Coerced Guilty Plea/Ineffective Assistance of Counsel (Grounds Two and
Four)
'

C.

Petitioner contends, as he did in both his 440 motions, that his guilty plea was not
intelligently or voluntarily given because his counsel was constitutionally ineffective. Pet. at
7-8. Specifically, petitioner's first counsel, Jurena, allegedly coerced him into taking the guilty
plea because Jurena knew that petitioner's arrest was not supported by probable cause. Id.
at 7. This was allegedly demonstrated by a note Jurena included on petitioner's file. Id. at
i:

10. Further}petitioner asserted that all three of his counsel - Jurena, Kindlon, and Sober "denied [him his] right to sufficient counsel by not working in [his] best interest and keeping
the truth about [his] cases defenses hidden from [him]." Id.
Respondent argues that petitioner's claims are unexhausted and meritless. Resp.
Mem. at 15-25. Specifically, respondent contends that (1) nothing in the record supports that
Jurena coerced petitioner's plea, {id. at 15-22); (2) the claims against Sober were
unexhausted and conclusory, {id. at 22-23); and (3) the claims against Kindlon were vague
■i

and meritless, {id. at 22-25).
I!

Petitioner replies that his plea was unconstitutional because he could not rationally

15

5

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 16 of 27

weigh his options. Traverse at 8. Specifically, petitioner relies on Northrop v. Trippett, 265
F.3d 372 (6th Cir. 2001), for the proposition that his plea should be negated due to

:f l

ineffective assistance because, in that case, the court found counsel inadequate
where he
•i
i . ■

knew the inmate was stopped without probable cause. Id. at 9.

1.

Jurena

"A claim of ineffective assistance of counsel can be asserted where there was
improper coercion from . . . counsel to accept the guilty plea." United States v. Hanford,
5:14-CR-0273 (GTS), 2016 WL 8670498, at *5 (N.D.N.Y. Oct. 25, 2016) (denying § 2255
claims that petitioner's plea was coerced due to constitutionally ineffective; counsel). To
demonstrate constitutionally ineffective assistance of counsel, a petitioner must show that

V

counsel's performance fell below an objective standard of professional reasonableness, and
but for counsel's alleged errors, the result of the proceedings would have been different such
that the petitioner suffered prejudice. See Premo, 562 U.S. at 121-22 (ncting that petitioner
"must show both deficient performance by counsel and prejudice") (citation and internal
quotation marks omitted); Strickland v. Washington, 466 U.S. 668, 694 (1984). Because
"this case involves a guilty plea, petitioner would have to show that, but for counsel's
allegedly deficient performance, he would not have pleaded guilty." Marzipie v. Walker, No.
9:97-CV-0512 (NAM/GLS), 2000 WL 33767759, at *3 (N.D.N.Y. May 4, 2000) (citing Hill v.
Lockart, 474 U.S. 52, 58 (1985)).

!•}

In order to comply with constitutional due process protections, a guilty plea must be
knowing, voluntary and intelligent. See United States v. Ruiz, 536 U.S. 622, 628-29 (2002)
(citing Boykin v. Alabama, 395 U.S. 238, 243 (1969); Brady v. United Stales, 397 U.S. 742,

16

I

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 17 of 27
■•I

748 (1970)). "The longstanding test for determining the validity of a guilty plea is whether the
plea represents a voluntary and intelligent choice among the alternative courses of action
open to the [petitioner]." Ferrer v. Superintendent, 628 F. Supp. 2d 294, 304 (N.D.N.Y.
2008) (quoting Hill, 474 U.S. at 56) (quotation marks omitted).
In evaluating whether a plea was knowing and voluntary, a court may consider,
"among other things, [petitioner's] allocution statements." Carpenter v. Unger, 9:10-CV-1240
(GTS/TWD), 9:12-CV-0957 (GTS/TWD), 2014 WL 4105398, at *19 (N.D.N.Y. Aug. 20, 2014)
(citing United States v. Torres, 129 F.3d 710, 715 (2d Cir. 1997)).
iT]he representations of the [petitioner], his lawyer, and the
•-Prosecutor at such a hearing, as well as any findings made by the
judge accepting the plea, constitute a formidable barrier in any
Subsequent collateral proceedings. Solemn declarations in open court
carry a strong presumption of verity. The subsequent presentation of
Ponclusory allegations unsupported by specifics is subject to summary
dismissal, as are contentions that in the face of the record are wholly
.ncredible.
Blackledge O'. Allison, 431 U.S. 63, 73-74 (1977); see Padilla v. Keane, 331 F. Supp. 2d 209
217 (S.D.N.Y. Aug. 19, 2004) ("Where . . . [petitioner] . . . has explicitly stated in his
allocution that he fully understands the consequences of his plea and that he has chosen to
“i

plead guilty after a thorough consultation with his attorney, a district court on habeas review
may rely on [petitioner's] sworn statements and hold him to them.").
Here, petitioner's claims that Jurena coerced him and his plea was involuntarily
rendered were denied in both of his 440 motions, with County Court citing to petitioner's
guilty plea. SCR at 42-43, 321-32. Accordingly, AEDPA's deferential standard of review
governs and relief can only be granted if the state court decision was a contrary or
unreasonable application of federal law. Review of the record indicates that the state court
h

17

Case 9:19-cv-00505-GLS

Document 28 Filed 07/06/20 Pagel8‘of27

properly applied Supreme Court precedent.
The plea allocution indicated that petitioner had sufficient time to discuss all of the
options with his attorney, petitioner understood all of the rights that he was waiving, petitioner
was doing so under his own free will, and petitioner was competent to doso. Dkt. No. 20-3
at 23-24. Moreover, County Court emphasized, and petitioner acknowledged, his satisfaction
with his representation because the plea deal was for four and one-half years as opposed to
the fifteen year maximum that petitioner was exposed to with the original -charge. Id. at 25.
Lastly, petitioner admitted his guilt; specifically, his action of possessing more than 1/8 ounce
of cocaine at the time of his arrest. Id. at 34-35. Given the strong presumption of veracity
given to these on-the-record statements, the state court decisions to deem petitioner's plea
knowing, intelligent, and voluntary were consistent with Supreme Court precedent.
Furthermore, nothing that petitioner has presented in his Petition o.;Traverse refutes
such claims. Petitioner first generally argues that he was coerced and could not rationally
weight his options. Pet. at 7. As previously noted, the sworn testimony during the allocution
indicates otherwise. Petitioner's present assertions are wholly contradicted by the record,
thus, they are insufficient to entitle petitioner to relief. See Blackledge, 431 U.S. at 73-74.
Petitioner next contends that a note on his file indicates that he wds given improper
legal advice. However, upon reading the note in its entirety, it is clear that petitioner's
assertion is patently incorrectly. Specifically, the note states that petitioner flagged a
"P[os]s[i]ble illegal stop" but it was "[explained [to petitioner that] this was;a rip op that will
provide p[robable] c[ause]."5 SCR at 268; see id. at 265 (flow sheet indicating that "after a
5 "[l]n a rip operation, police have a [confidential informant] arrange for a drug transaction with a targeted
suspect and then arrest the suspect at the outset of the transaction, before any drugs or money change hands."
People v. Williams, 177 A.D.3d 1178, 1183 n.4 (3rd Dep't 2019).
:

18
kt
l.

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20 Page 19 of 27

buy bust/rip, iteration [petitioner] was found in possession of 12.4 grams of crack cocaine
located in 24 individual tie-offs" and that "although he wasn't charged with a sale, this was an
agreement to sell which is suppficinet to charge a sale[.]"). Accordingly, Jurena's conclusion
was not that'there was an issue with probable cause supporting the arrest. Conversely, it
was the exact opposite. Petitioner's present assertions are wholly contradicted by the record,
thus, they are again insufficient to entitle petitioner to relief. See Blackledge, 431 U.S. at 7374.
Petitioner lastly contends that the holding from Northrop compels a different result.
Traverse at/3. However, Northrop is not binding precedent on this Court. Even if it were,
while petitioner asserts the correct legal proposition - where reasonable counsel would
suspect probable cause is lacking and a motion to suppress should be filed, counsel is
deemed ineffective where he instead encourages his client to plead guilty - the facts of the
present case*- are completely different. Northrop, 265 F.3d at 383-385. For the reasons
stated above, petitioner's Fourth Amendment is barred and the verdict would not have been
different because, given the admissions he made in court, petitioner was guilty of drug
possession. Therefore, petitioner's arguments are insufficient to establish that the state court
failed in properly applying Supreme Court precedent.
2.
Kindlon
T
Petitioner contends that attorney Kindlon "denied [him his] right to sufficient counsel
by not working in [his] best interest and keeping the truth hidden from [him.]" Pet. at 7.
Petitioner does not further identify what the deficiency was in the representation or what
defenses were not disclosed. "It is well-settled in this Circuit that vague and conclusory
allegations that are unsupported by specific factual averments are insufficient to state a
19

iiCf

Case 9:19-cv-00505-GLS Document 28

Filed 07/06/20 Page'2G[of27

viable claim for habeas relief." Kimbrough V. Bradt, 949 F. Supp. 2d 341355 (N.D.N.Y.
2013). Here, no such details were provided. Accordingly, petitioner has failed to allege a
viable claim for relief. Id. (citing cases holding that vague and conclusory allegations are
insufficient to support an ineffective assistance of counsel claim).
Liberally construing the state court record, to the extent petitioner intended to reassert
his claim from his 440 motion, such claim is similarly denied. Specifically,petitioner argued
that Kindlon "explained . . . that [petitioner] had a right to get his plea bacK and that he would
see to it that he got his plea," until he arrived in court whereupon he continued to advise and
persuade petitioner to take the enhanced plea deal for nine years. SCR at 7. All that
petitioner has to support this contention are his own self-serving statements, which have
been flatly denied by Kindlon. See SCR 281. For the reasons stated above, conclusory
allegations alone are insufficient to demonstrate entitlement to relief for ineffective
assistance. Kimbrough, 949 F. Supp. 2d at 355.
Moreover, County Court denied the argument as meritless, explaining that petitioner
failed to show "the absence of strategic or other legitimate explanations for the alleged
shortcoming by his various counsel." Id. at 43. This holding is consistent with Supreme
Court precedent. "A [petitioner] has no absolute right to withdraw his plea of guilty . . . [i]t [is
petitioner's] burden to persuade the trial court that he had good grounds to withdraw his guilty
plea." United States v. Williams, 23 F.3d 629, 634-35 (2d Cir. 1994).

:

Here, liberally construing the record and submissions, petitionercontends that his pre­
plea arrest and indictment should have entitled him to withdraw his plea. SCR at 7. County
Court advised petitioner that he would only be permitted to withdraw his plea if new
information arose regarding criminal conduct occurring before the plea was taken. Dkt. No.
20

l

;

Case 9:19-cv-00505-GLS

Document 28

Filed 07/06/20 Page 21 of 27

20-3 at 31-33, 40. While petitioner did have a pre-plea arrest, withdrawal was never
broached because County Court decided that petitioner had broken the terms of the plea
agreement, leading to the enhanced sentence. Id. at 70-73. Specifically, the basis for the
county court's decision that petitioner had broken his end of the bargain was his post-plea
arrest for the same crime for which he had previously pled guilty. Id. Accordingly,
even assuming arguendo that counsel's failure to . . . request
•Permission to withdraw [petitioner's] guilty plea fell below the
objectively minimum threshold standards under Strickland, petitioner
• has suffered no prejudice, since it is clear that the court was under no
obligation to permit the petitioner to withdraw his guilty plea under the
■ circumstances.
Rivera v. Superintendent, Wyoming Corr. Facility, No. 9:03-CV-1058 (DNH), 2006 WL
2946265, at *8 (N.D.N.Y. Oct. 12, 2006). The state court's determination, alluding to the fact
that a strategic and legitimate explanation supported Kindlon's decision not to seek
withdrawal df the plea, is a reasonable application of Supreme Court precedent.
3.

Sober

Petitioner also argues that attorney Sober "denied [him his] right to sufficient counsel
by not working in [his] best interest and keeping the truth hidden from [him.]" Pet. at 7.
Petitioner does not further identify what the deficiency was in her representation or what
defenses were not disclosed. Sober only represented petitioner on the day of his
sentencing. Dkt. No. 20-3 at 69.
Petitioner never made any mention of Sober's representation during the course of his
direct appea] or 440 motions. Accordingly, it is questionable whether the claim has been

21

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 22 of 27

properly exhausted.6 Regardless, petitioner fails to provide any further detail regarding his
specific claims against Sober. Given the lack of specificity, petitioner's claim, as stated, fails
to provide any basis for relief. Kimbrough, 949 F. Supp. 2d. at 355 (explaining "a claim of
ineffective assistance must contain specific factual contentions regarding how counsel was
ineffective," or else such claims fail to meet the demanding standard imposed upon
petitioners).
D.

Prosecutorial Misconduct (Ground Three)

Petitioner again argues, as he did in his second 440 motion, that there was
prosecutorial misconduct because the prosecutor procured the indictment from the grand jury
using false evidence. Pet. at 8-10. Respondent opposes the argument contending that the
claim is foreclosed by petitioner's guilty plea. Resp. Mem. at 25-26.
As previously discussed, "it is well settled that a guilty plea represents a break in the
chain of events which has preceded it in the criminal process and [petitioner] may not
thereafter raise independent claims relating to the deprivation of constitutional rights that
occurred prior to the entry of the guilty plea." Williams v. Gonyea, No. 9:16-CV-0460 (JKS)
2017 WL 4990645, at *5 (N.D.N.Y. Oct. 31,2017) (quoting Tollett, 411 U;S. at 267)
(quotation marks omitted). Instead, petitioner is limited to "attacking] the voluntary and

6 An application for a writ of habeas corpus may not be granted until a prisoner has exhausted all remedies
available in state court unless "there is an absence of available State corrective process' or "circumstances exist
that render such process ineffective to protect the rights of the applicant." 28 U.S.C. § 2254 (b)(1)(A), (B)(i), (ii). To
properly exhaust his claims, petitioner must do so both procedurally and substantively. t Procedural exhaustion
requires that he raise all claims in state court prior to raising them in a federal habeas corpus petition. Substantive
exhaustion requires that the petitioner "fairly present" each claim for habeas relief in "each appropriate state court
(including a state supreme court with powers of discretionary review), thereby alerting that court to the federal nature
of the claim." Baldwin v. Reese, 541 U.S. 27, 29 (2004) (citations omitted). In other words, Petitioner "must give
the state courts one full opportunity to resolve any constitutional issues by invoking one complete round of the State's
established appellate review process." O'Sullivan v. Boerckel, 526 U.S. 838, 845 (1999). Petitioner must also use
the proper procedural vehicle so that the state court may pass on the merits of his claims. See Dean v. Smith, 753
F.2d 239, 241 (2d Cir. 1985).

22

Case'U:19-cv-00505-GLS Document 28

Filed 07/06/20 Page 23 of 27

intelligent character of the guilty plea by showing that the advice he received from counsel
was not within acceptable standards." Id. (internal quotation marks and citations omitted).7
Therefore, "[b]ecause the events which give rise to this claim [of prosecutorial
misconduct} occurred prior to [petitioner's] guilty plea, the claim is foreclosed by the Tollett
bar." Id.] sea Pena v. Sheahan, No. 1:15-CV-2455, 2018 WL 3639927, at *15 (S.D.N.Y.
June 22, 20Y8) ("[l]n light of [petitioner's] knowing and voluntary guilty plea, his prosecutorial
r

misconduct ctlaims are irrelevant to the constitutional validity of his conviction and, thus,
cannot be the basis for federal habeas review.") (citing Haring v. Prosise, 462 U.S. 306, 321
(1983) (explaining that when a petitioner "is convicted pursuant to his guilty plea rather than a
trial, the validity of that conviction cannot be affected by an alleged Fourth Amendment
violation because the conviction does not rest in any way on evidence that may have been
improperly ssized," as the plea is a break in the chain of events); United States v. Gregg, 463
F.3d 160, 164 (2d Cir. 2006) ("[A] guilty plea . . . conclusively resolves the question of factual
guilty supposing the conviction, thereby rendering any antecedent constitutional violation
bearing on Actual guilty a non-issue[.]").
Therefore, petitioner's claim is barred by his knowing and voluntary plea.
E.

Enhancement of Sentence/Departure from Plea Agreement (Ground Five)

Petitioner asserts, as he did on direct appeal, that the trial court erred in departing
from the negotiated sentence and imposing an enhanced sentence on him without allowing
him to withdraw his plea. Pet. at 16. Specifically, petitioner contends that the sentencing

1.1

7 For t ie reasons previously stated, petitioner has failed to adequately argue that his plea was involuntary
or his counselIneffective.

23
!

Case 9:19-cv-00505-GLS Document 28 Filed 07/06/20 Page 24 of 27

court should have conducted an Outley hearing8 and that it was improperly "satisfied with a
mere indictment. . . and an arrest warrant," to prove the existence of a.post-plea charge
sufficient to declare that petitioner had violated the terms of the plea. Pet" at 16; Traverse at
11. Respondent contends that an Outley hearing is a state law remedy, that is not cognizant
on habeas review and that petitioner's claims are meritless. Resp. Mem. at 26-28.9
Here, petitioner's claim that his sentence was incorrectly enhanced because the plea
deal should have instead been withdrawn was denied in his direct appeal'. Woods, 150
A.D.3d at 1561. Accordingly, the AEDPA's deferential standard of review governs and relief
can only be granted if the state court decision was a contrary or unreasonable application of
federal law. Review of the record indicates that the state court properly, applied Supreme
Court precedent.

I*

Supreme Court precedent states "that the sentencing process, as well as the trial
itself, must satisfy the requirements of the Due Process Clause." Gardner v. Florida, 430
U.S. 349, 358 (1977).
However, subsequent to the Court of Appeals' decision in Outley in
1993 and continuing after the Second Circuit's decision in [Torres v.
Berbary, 340 F.3d 63 (2d Cir. 2003)], courts have found that a
In People v. Outley, the Court of Appeals refused to institute a rule that "the" court must conduct an
evidentiary hearing to satisfy itself by a preponderance of the evidence that the defendant has, in fact, committed
the [postplea] crime for which he was arrested," and, instead, determined that "[w]hen an it Sue is raised concerning
the validity of the postplea charge or there is a denial of any involvement in the underlying crime, the court must
conduct an inquiry at which the defendant has an opportunity to show the arrest is without foundation." 80 N.Y.2d
702, 713 (1993).
9 While respondent contends that an Outley hearing is solely a state law issue, the Outley decision relies
on federal precedent - namely a district court decision denying a § 2254 habeas petition - when determining the
appropriate standard by which to decide whether postplea criminal conduct can justify departure from the plea terms.
Outley, 80 N.Y.2d at 713 (citing Innes v. Dalsheim, 680 F. Supp. 517 (E.D.N.Y. 1988), judgment rev'd by, 864 F.2d
974 (2d Cir. 1988) (granting habeas petition and remanding back to district court where Second Circuit determined
petitioner's due process rights were violated because he was not clearly informed of the consequences of breaching
the plea agreement)). Accordingly, petitioner's contentions were sufficient to put the state court on notice regarding
the federal constitutional nature of his claims.
'■

24

!

i

Case f):19-cv-00505-GLS

Document 28 Filed 07/06/20 Page 25 of 27

[petitioner's] post-plea indictment on a new criminal charge, and the
sentencing court's review of that indictment, constitutes a "legitimate
oasis" to conclude that [petitioner] breached a condition of his
• sentence and, thus, comports with the requirements of due process.
Desio v.Teroush, No. 1:05-CV-3933, 2007 WL 1300987, at *8 (E.D.N.Y. May 3, 2007) (citing
cases); see Doleman v. Rick, 281 F. Supp. 2d 549, 560 (E.D.N.Y. 2003) (holding that "the
legitimate bosis for petitioner's arrest was satisfactorily established by virtue of the grand
jury's return,jOf an indictment against petitioner with respect to that incident[.]".)
Here; petitioner contends that his "no arrest" condition was never triggered to break
the plea because he was never arrested for his post-plea criminal charges. Pet. at 16;
Traverse at 11. This is a because petitioner was already in custody and incarcerated from
the pre-plea indictment which had been handed down. See Woods, 150 A.D.3d at 1561.
"New York courts have repeatedly upheld the practice of imposing an enhanced sentence for
breach of a plea condition ... at least where the finding of breach is based upon the
[petitioner's] post-plea arrest and indictment." Desio, 2007 WL 1300987, at *11.
AccordinglyVeven though petitioner was already incarcerated and did not require being re­
arrested, a'sentence enhancement based upon an indictment for post-plea criminal activity
has been deemed sufficient to satisfy both state and federal due process protections.
While petitioner does not explicitly appear to argue that the conditions of his plea were
vague or otherwise ambiguous, to the extent the petition can be read to assert such
contentions, they would be meritless. When deciphering the terms of a plea agreement, the
> i

main question "is what the parties to th[e] plea agreement reasonably understood to be the
terms of the agreement." Desio, 2007 WL 1300987, at *11 (quoting Paradiso v. United
States, 689 |j.2d 28, 31 (2d Cir. 1982), cert, denied, 459 U.S. 1116 (1983) (internal quotation

25

Case 9:19-cv-00505-GLS

Document 28 Filed 07/06/20

Page 26 of 27

r
marks omitted)). "Thus, the crucial issue here is whether the imposed sentence comports
with the reasonable understanding and expectations of the [petitioner] aslo the sentence for
■

*■>

which he bargained . . . resolving any ambiguity in the agreement in favor of the . . .
petitioner." Id. (internal quotation marks and citations omitted).
Here, consistent with the federal precedent cited above, the state court determined
that the plain terms of the plea, specifically the no-arrest condition, was intended "to
discourage [petitioner] from committing additional crimes subsequent to the entry of his guilty
plea while he was out on bail pending sentencing." Woods, 150 A.D.3d at 1561. During the
plea hearing, the trial court repeatedly warned, and petitioner repeatedly acknowledged, that
failure to abide by this condition would lead to a sentence enhancement. Dkt. No. 20-3 at
31-32, 40. Petitioner failed to abide by the condition. The state court's determination that
petitioner's subsequent "criminal conduct, which resulted in an indictment, was implicitly
proscribed by the conditions of the plea agreement and provided a legitimate basis for
enhancement of the sentence," represents a fair and reasonable understanding of the
expectations set upon the parties and the plea for which petitioner bargained. Woods, 150
A.D.3d at 1561. In sum, the state court's holding that petitioner's plea terms were not
ambiguous, petitioner did violate said terms, and the subsequent criminal -indictment served
as a legitimate basis for the resulting sentence enhancement are all reasonable applications
of federal precedent and comport with due process protections.

i■

Therefore, petitioner's claim for relief on this ground is denied.
V.

CONCLUSION
WHEREFORE, it is hereby
ORDERED that the petition (Dkt. No. 1) is DENIED AND DISMISSED in its entirety;
26

n
!y

'

* •»

Case>9:19-cv-00505-GLS Document 28
)

Filed 07/06/20 Page 27 of 27

l

and it is further
!

ORDERED that no Certificate of Appealability shall issue because petitioner failed to
make a "substantial showing of the denial of a constitutional right" as 28 U.S.C. § 2253(c)(2)
requires10; and it is further
ORDERED that the Clerk serve a copy of this Decision and Order on the parties in
accordance with the Local Rules.
IT IS SO ORDERED.
*• ’•
July 6, 20.2C
Albany, NevhYork

i

!(
■;

s;si
•A

i

ti

10 Sert Miller-El v. Cockrell, 537 U.S. 322, 336 (2003); Richardson v. Greene, 497 F.3d 212, 217 (2d Cir.
2007) (holding that, if the court denies a habeas petition on procedural grounds, "the certificate of appealability must
show that jurists of reason would find debatable two issues: (1) that the district court was correct in its procedural
ruling, and (2)l'jhat the applicant has established a valid constitutional violation" (emphasis in original)).

27
I

r

wj[Lef
ilvicf, cMouJlS>

cfh/n
r

1

o - c\d unc6rr t(xt
r

>Vl^C

*tu

l

t

ft ojpws,
, Sd-tcl!'.so

\)(^U lA ^ovWiaI
■<

<5‘

.1

\

CuA'S
V

W

*

AM

r
<&e ^

Si >v>

>►•

*«

"

*.
U.5. DISTRICT COURT - N.D.OF N.Y.

FILED
UNITED STATES DISTRICT COURT
NORTHERN: DISTRICT OF NEW YORK

AUG 04 2020
AT

Li

O'CLOCK

John M. Domurad. Clerk - Syracuse

JOSEPH WOODS
L;
M

Petitioner,
9:19-CV-505
(GLS)

l v.
SUPERINTENDENT,
;
Respondent.

OF COUNSEL:

APPEARANCES:
JOSEPH WOODS
Petitioner pro se
15-A-2130
Washingtoni Correctional Facility
Box 180
72 Lock 11 Lane
Comstock, Ny 12821
V
HON. LETITIA JAMES
Attorney forrRespondent
New York State Attorney General
28 Liberty Street
New York, NY 10005

MARGARET CIEPRISZ
Assistant Attorney General

GARY L. SHARPE
Senior United States District Judge
DECISION and ORDER
I.

INTRODUCTION
Petitioner Joseph Woods sought federal habeas corpus relief pursuant to 28 U.S.C.

§ 2254. Dkt No. 1, Petition ("Pet.").1 On July 6, 2020, this Court denied and dismissed the
petition in its entirety. Dkt. No. 28, Decision and Order ("July Order"); Dkt. No. 29, Judgment.

.!
1 Citations to the parties1 filings refer to the pagination generated by CM/ECF, the Court's electronic filing
system.

i

i.

V

(;
;

l:
Petitioner then filed a request for an extension of time to file a Notice of Appeal, which was
i

denied. Dkt. No. 30, Letter Motion; Dkt. No. 31, Text Order Of July 15, 2020. Subsequently,
petitioner filed the instant motion for reconsideration. Dkt. No. 33.
II.

I

r

RECONSIDERATION
"The standard for. . . [reconsideration] is strict, and reconsideration will generally be

denied unless the moving party can point to controlling decisions or data that the court
overlooked . . . that might reasonably be expected to alter the conclusion reached by the
court." Shrader v. CSX Transp., Inc., 70 F.3d 255, 257 (2d Cir. 1995). Reconsideration is
warranted only where controlling law has changed, new evidence is available, clear error
must be corrected, or manifest injustice prevented. See Long v. U.S. DefSt of Justice, 778 F.
Supp. 2d 222, 228-29 (N.D.N.Y. 2011) (citing Doe v. N.Y.C. Dep't of Soc.i Serves., 709 F.2d
782, 789 (2d Cir. 1983)); Jackson v. Jimino, 506 F. Supp. 2d 105, 108-09 (N.D.N.Y. 2007).
Petitioner submitted a "reargument" of a portion of his habeas petition, arguing that he
was entitled to reconsideration "because (1) the petitioner did not breach line plea agreement
the lower Court did; (2) the sentence enhancement was not even based on what the
petitioner was arrested for March 9, 2015; and (3) lawfully, the plea must-be vacated and the
case must be dismissed in it’s entirety." Dkt. No. 33 at 4. Petitioner reiterates many
substantive arguments and cites to three state cases — People v. Parker;:21'[ A.D.2d 63
(4th Dep't 2000); People v. Outley, 80 N.Y.2d 702 (1993), and People v. McGirt, 198 A.D.2d
101 (1st Dep't1993) — to support his assessment that his plea should hav\e been withdrawn
because he did not breach his plea agreement. Id. at 2-4.

>

Petitioner has not provided any reason which justifies reconsideration of the July
:T

2

• r-

//

4

•'

“

i.
■I

Order. Petitioner's citation to the three cases mentioned above, all concerning the
appropriateness of sentencing enhancements following a plea deal, are an attempt to rehash
arguments that this Court has already considered and rejected. July Order at 23-26.
Petitioner has not demonstrated that any controlling decisions or material facts were
overlooked that might have influenced the Court's July Order. In sum, petitioner's motion is
nothing more than conclusory assertions which amount to little more than a disagreement
with the Court's former orders. Petitioner's disagreement with this Court's decisions is not a
basis for reconsideration. See Finkelstein v. Mardkha, 518 F. Supp. 2d 609, 611 (S.D.N.Y.
2007). As a result, reconsideration of the Court's decision is not warranted.
III.

RULE 60
Additionally, a provision of the Federal Rules of Civil Procedure also allow for

reconsideration of final judgement. Rule 60(b) provides:
Grounds for Relief from a Final Judgment, Order or Proceeding.
On a motion and just terms, the court may relieve a party . . . from
a final judgment, order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence, that with reasonable
diligence, could not have been discovered in time to move for
a new trial under Rule 59(b);
(3) fraud, misrepresentation, or misconduct;
(4) the judgment is void;
;
(5) the judgment has been satisfied, released, or discharged;
or
(6) any other reason that justifies relief.
"The Supreme Court has recognized that Rule 60(b) applies in habeas corpus cases and
may be used to reopen a habeas proceeding." Flemming u. New York. No. TD6-CV-15726
2013 WL 4831197, at *12 (S.D.N.Y. Sept. 10, 2013) (citing Gonzalez v. Crosbv. 545 U.S.
524, 534 (2005)). "Importantly, Rule 60(b) is not a vehicle for rearguing the merits of the
3
V

w

l

4

|i.

challenged decision . . . [r]ather. . . Rule 60(b) provides relief only in exceptional
circumstances." Van Gorderv. Allerd, No. 6:01-CV-6538, 2008 WL 822018, at *2 (W.D.N.Y.
Ma
"A motion brought under Rule 60(b) must be made 'within a reasonable time' and
motions brought under Rule 60(b)(1), (2), or (3) must be made within one'year after the entry
of judgment." Flemming, 2013 WL 4831197, at *12. "The Supreme Court has interpreted
subsection six as requiring a showing of 'extraordinary circumstances' to '.ustifyQ the
reopening of a final judgment.'" Reynolds v. Greene. N.n.-9.-05-CV-1539. 2010 WL 604179. at
*2 (N.D.N.Y. Feb. 16, 2010) (quoting Gonzalez v. Crosby, 545 U.S. 524, 535 (2005)).
Here, even under a liberal interpretation of this motion, petitioner has failed to allege
facts demonstrating that any of the grounds listed in the clauses of Rule 60(b) apply or that
extraordinary circumstances exist to warrant relief under the catch-all provision of Rule
60(b)(6). Instead, petitioner seeks to again challenge the merits of his claim. In sum,
petitioner has not advanced an argument in response to the July Order's reasoning or
otherwise provided information suitable to change the Court's prior decision.
IV.

CONCLUSION

if

WHEREFORE, it is

:»

ORDERED that petitioner's motion for reconsideration (Dkt. No. 33> is DENIED; and it
is further
ORDERED that the Clerk shall serve a copy of this Decision and Order on the parties
!

in accordance with the Local Rules of Practice.
August 3, 2020
Albany, New York

4
/
!/
•?

;1

Additional material
from this filing is
available in the
Clerk's Office.

